The Department of Justice Office of the Inspector General (OIG) today released a
report examining the Department’s implementation of and compliance with
requirements for ensuring the proper classification of information. The OIG conducted
this audit pursuant to the Reducing Over-Classification Act, which directed OIGs to
assess the adoption, compliance, and administration of their agencies’ applicable
classification policies, procedures, rules, and regulations, and to identify any factors
that may contribute to persistent misclassification of material.

The OIG found that DOJ has established classification policies and procedures, but
has not effectively administered them to ensure that information is classified and
disseminated appropriately. Although the OIG’s review of a sample of classified
documents created during fiscal year 2012 did not find indications of widespread
misclassification, we identified deficiencies relating to the implementation of DOJ’s
classification program, including a persistent misunderstanding and lack of knowledge
of certain classification processes by officials within DOJ components. We believe that
the types of discrepancies identified and the causes of those discrepancies indicate
that DOJ is susceptible to misclassification.

The OIG found several documents in which unclassified information was
inappropriately identified as being classified and many documents that either did not
contain required classification markings or contained incorrect classification
markings. In addition, we found that the National Security Division, the Criminal
Division, and the Drug Enforcement Administration incorrectly categorized many
decisions to classify information as “original” classification decisions when, in fact, a
classifying official had previously classified the information in question. Officials who
inappropriately apply original decisions rather than adopting the decision previously
made risk causing information that should be treated similarly to be classified
differently across programs. This practice could also result in classifiers providing
directions about classification levels, dissemination controls, or declassification dates
that are inconsistent with previously established directions.

The OIG identified several factors that contributed to DOJ components incorrectly
classifying and marking documents, including weaknesses in DOJ’s implementation of
classification standards, the limited distribution of automated tools designed to
improve the classification and marking processes, and weaknesses in the application
of security education and training programs. Moreover, although the Security and
Emergency Planning Staff (SEPS) within the Justice Management Division (JMD) has
developed oversight and review processes for classified national security information,
we found that SEPS has encountered problems executing and overseeing those
procedures, in part because of insufficient resources devoted to these responsibilities
and in part because of weaknesses in infrastructure, training, and controls
throughout DOJ.

The OIG made 14 recommendations to JMD to help improve the Department’s
classification management program and better implement classification
procedures. JMD concurred will all 14 recommendations.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2013/a1340.pdf.
